OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/ANGOLA’S
IMPLEMENTATION OF THE
PRESIDENT’S MALARIA
INITIATIVE
AUDIT REPORT NO. 4-654-08-001-P
November 21, 2007




PRETORIA, SOUTH AFRICA

Office of Inspector General


November 21, 2007

MEMORANDUM

TO:	                 USAID/Angola, Mission Director, Susan Brems

FROM: 	              Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:	            Audit of USAID/Angola’s Implementation of the President’s Malaria
                     Initiative (Report No. 4-654-08-001-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments in their entirety, as appendix II.

The report includes four recommendations to strengthen USAID/Angola’s
implementation of the President’s Malaria Initiative. In response to the draft report, the
mission agreed with all four recommendations and has established a target date for
finalizing the performance management plan and performing a data quality assessment.
Based on the mission’s response, management decisions have been reached for
recommendation nos. 1 and 2.

The mission agreed with recommendation no. 3, but a management decision will not be
reached until the mission has established an implementation plan for data verification.
The mission has provided documents demonstrating that recommendation no. 4 has
been addressed; therefore, we consider this recommendation closed.

Please provide USAID’s Office of Audit, Performance, and Compliance Division
(M/CFO/APC) with the necessary documentation demonstrating that final action has
been taken on all recommendations.

Thank you for the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
100 Totius St.
Groenkloof X5
Pretoria 0027, South Africa
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


     Performance Management Plan 

     Addressing PMI Needs to be Finalized ....................................................................... 6 


     Data Quality Assessment Needed for 

     PMI Data ..................................................................................................................... 7 


     Site Visits Need Documentation And 

     Data Verification.......................................................................................................... 8 


     Indoor Residual Spraying 

     Responsibilities Need Formalization ......................................................................... 10 


Evaluation of Management Comments ....................................................................... 12 


Appendix I – Scope and Methodology ........................................................................ 13


Appendix II – Management Comments ....................................................................... 15 

SUMMARY OF RESULTS 

The Regional Inspector General/Pretoria conducted this audit to determine whether
selected USAID/Angola activities under the President’s Malaria Initiative (PMI) were
achieving planned results. PMI was launched by the Administration in June 2005 with a
goal of reducing malaria deaths in 15 target countries in Africa. This 5-year, $1.2 billion
initiative intends to reach 85 percent of the most vulnerable people (pregnant women
and children under age 5) through prevention and treatment activities. USAID leads the
initiative with assistance from numerous governmental and nongovernmental
organizations. (See page 2.)

For results at the operational level, USAID/Angola met its planned targets for all three
selected activities in fiscal year (FY) 2006. These three activities were as follows:

     •	 Indoor spraying of houses with insecticide.
     •	 Procurement and distribution of free, long-lasting, insecticide-treated bednets.
     •	 Procurement of insecticide-treated bednets that were to be made available to
        antenatal clinics and local markets for sale at a subsidized price. (See page 4.)

The mission demonstrated that progress is being made toward achieving successful
results through the contributions of PMI and other partners in several program areas.
For instance, the availability and use of insecticide-treated bednets are increasing in
locations where they have been distributed under PMI.

The audit found that higher level outcomes from FY 2006 activities could not be
determined because baseline data did not exist at the start of PMI in Angola. For
example, the reduction, if any, in the number of confirmed malaria cases as a result of
year one activity could not be determined. However, baseline data has subsequently
been collected and, by 2010, a survey will be completed so that the impact of PMI
activities can be assessed.

The mission is responsible for meeting ambitious PMI goals by the end of 2010.
However, according to mission officials, these goals cannot be attained with the level of
related funding that the mission expects to receive. As a result, to meet the PMI goals,
some activities will require funding from other donors. (See page 5.)

The audit identified several areas where USAID/Angola’s implementation of PMI
activities could be strengthened, which should help the mission implement and expand
program activities.     Recommended actions include (1) finalizing a performance
management plan, (2) performing a data quality assessment, (3) documenting site visits
and validating partners’ data during the visits, and (4) entering into a formal agreement
with the National Malaria Control Program for indoor residual spraying activities. (See
pages 6-11.)

For the four recommendations mentioned above, USAID/Angola agreed with the
recommended actions and has provided a plan to address these recommendations. For
recommendation no. 4, USAID/Angola has provided evidence that final action has been
taken. The mission’s comments are included in their entirety in appendix II. (See page
12.)


                                                                                         1
BACKGROUND 

On June 30, 2005, President Bush launched the President’s Malaria Initiative (PMI) with
a goal of reducing malaria deaths by 50 percent in 15 target countries in Africa by the
end of 2010. The initiative’s goal is to reach 85 percent of the most vulnerable people
(pregnant women and children under age 5) through prevention and treatment activities.
PMI is a 5-year, $1.2 billion program that began in 2006 in Angola, Tanzania, and
Uganda. Four countries were added in 2007, and eight more countries are beginning
implementation in 2008. USAID leads PMI with assistance from the U.S. Centers for
Disease Control and Prevention, host country governments, international partners,
nongovernmental organizations, faith-based and community groups, and the private
sector. From the onset of PMI, USAID/Angola has involved various stakeholders in
designing the program to address Angola’s needs, as well as to complement resources
from the host government; from the Global Fund to Fight AIDS, Tuberculosis, and
Malaria; and from other donors. The interaction between USAID/Angola, Centers for
Disease Control in Angola (CDC/Angola), and the U.S. Embassy in implementing PMI
has resulted in a close working relationship among these entities, which has led to
effective coordination.

PMI’s key program areas for the prevention and treatment of malaria are listed below.
These program areas are integral components of USAID/Angola’s PMI strategy.

     •	 Indoor residual spraying: Insecticide is sprayed on the interior walls of houses
        to interrupt malaria transmission by killing mosquitoes.
     •	 Insecticide-treated bednets: Insecticide-treated bednets are made available to
        targeted populations.
     •	 Artemisinin-based combination therapy drugs: PMI purchases these drugs
        which are the most effective and fast-acting products available for the treatment
        of malaria. PMI also establishes support systems for distributing these drugs
        and training health care workers on their use.
     •	 Intermittent preventive treatment: Pregnant women are treated with at least two
        doses of sulfadoxine-primethamine, which prevents or attenuates malaria, as
        well as prevents anemia and low birthweight. Training and supervision of health
        workers have been provided under PMI.

Malaria is the principal cause of morbidity and mortality in Angola. Most affected are
children under age 5 and pregnant women. Malaria is responsible for approximately 35
percent of Angola’s mortality rate of 250 per 1,000 children under age 5. It also
accounts for approximately 60 percent of hospital admissions for children and 10 percent
for pregnant women. Furthermore, malaria is estimated to be responsible for 25 percent
of Angola’s maternal mortality rate of 1,280 per 100,000 live births. Malaria transmission
is highest in the north while the southern provinces bordering Namibia are epidemic-
prone.

Complicating efforts to address malaria was Angola’s 27-year civil war that ended in
2002.1 The toll on health care facilities from this conflict was significant: approximately

1
  Angola’s civil war resulted in the deaths of up to 1 million Angolans and the internal
displacement of 4.5 million people; 450,000 other people fled the country as refugees.


                                                                                         2
80 percent of the country’s health care facilities were looted or destroyed. Only about 30
percent of the population is covered by the health care system with even lower use
rates. Health care system challenges include (1) lack of qualified and motivated staff
outside of the capital, (2) weak drug and medical supply systems, and (3) a weak
primary care network.

In fiscal year (FY) 2006, $7.5 million was obligated for PMI activities in Angola, of which
$1.36 million was in the form of bilateral assistance and $6.14 million was from field
support.2 The ExxonMobil Foundation donated $1 million to the mission to further PMI
goals in both fiscal years 2006 and 2007. For FY 2007, the mission planned on
obligating $18.5 million for PMI activities in Angola of which $4.44 million would be
provided through bilateral assistance.

AUDIT OBJECTIVE
The Regional Inspector General/Pretoria conducted this audit at USAID/Angola as part
of the Office of Inspector General’s annual audit plan to answer the following question:

    •	 Are selected USAID/Angola activities under the President’s Malaria Initiative
       achieving planned results?

Appendix I contains a discussion of the audit’s scope and methodology.




2
  Field support refers to the transfer of USAID/Angola funds to USAID/Washington in which a
central USAID bureau undertakes the lead (e.g., by designating a cognizant technical officer) in
managing a contract or task order but works in close collaboration with the Mission to ensure
successful implementation.


                                                                                              3
AUDIT FINDINGS 

For results at the operational level, USAID/Angola met its planned targets for all three
selected activities in fiscal year (FY) 2006. At higher levels, the audit found that results
from FY 2006 activities could not be determined because baseline data did not exist.
The impact of these PMI activities will be assessed upon completion of a second malaria
indicator survey, which is expected to be completed in 2010. Nevertheless, progress is
being made in achieving successful results through the contributions of the mission and
its partners. Ultimately, according to mission officials, the future success of PMI
program goals in Angola will rely upon continued funding from the Global Fund to Fight
AIDS, Tuberculosis, and Malaria.

Operational-Level Results

All three selected PMI activities implemented by USAID/Angola achieved their planned
targets in FY 2006. The first selected activity was for indoor residual spraying of
pesticide for houses in the Municipality of Ondjiva in Cunene Province, and the
Municipalities of Lubango and Humpata in Huila Province. All of these provinces are
located in southern Angola. The PMI-funded spraying campaign included training the
sprayers; hiring vehicles; and procuring pesticide, spray equipment, and protective
clothing. Spraying began in Huila Province on December 12, 2005, and in Cunene
Province on February 15, 2006. Spray activities were concluded by March 31, 2006. In
total, 107,373 houses were sprayed—surpassing the target of 100,000 houses.3 There
were logistical and technical obstacles that had to be overcome because this was the
first time in more than 10 years that indoor residual spraying activities had been
implemented in Angola.

A second selected activity that achieved its target was the procurement and distribution
of 420,000 free, long-lasting, insecticide-treated bednets. PMI funds were provided to
the United Nations Children’s Fund (UNICEF), which procured these bednets and
distributed them free of charge. This was part of a larger effort of providing 826,000
bednets in seven provinces as part of the Angola Ministry of Health’s measles
vaccination campaign in collaboration with UNICEF and other partners. The campaign,
which targeted children under age 5, took place in July 2006.

The third selected activity had a target of procuring 34,264 insecticide-treated bednets
and, by the end of FY 2006, 37,993 bednets had been procured. The primary target
groups were pregnant women and children under age 5. Distribution outlets for these
bednets include antenatal clinics (selling highly subsidized nets) and commercial outlets
(selling partially subsidized nets). This activity built upon ongoing activities that had been
funded by other donors.


3
  An earlier target of 170,000 houses had been established for IRS. Per USAID/Angola, the
target was then lowered to 100,000 houses when less funding than anticipated was allocated to
this activity. The reduced target was agreed to orally by the major stakeholders but not put into
writing. The mission indicated that the figure of 170,000 houses to be sprayed in the south was
based on an estimate of the population in those two provinces from figures provided by the
provincial government. When the operational plan was written, no up-to-date census or maps of
the area were available.


                                                                                               4
Higher-Level Results

At higher levels, results from FY 2006 activities could not be determined because of a
lack of baseline data for malaria prevention data in the country.4 For example, the
reduction, if any, in the number of confirmed malaria cases as a result of year one
activity could not be determined. According to the mission, at the start of PMI activities
in Angola, no accurate or up-to-date information was available on nationwide coverage
of key malaria prevention and control measures such as bednet usage and malaria
prevalence rates. Subsequently, PMI partners and other donors conducted a nationwide
malaria indicator survey in late calendar year 2006 that provided baseline data on the
status of malaria indicators. USAID/Angola officials believe that a malaria indicator
survey expected to be completed by early 2010 will provide insight into the impact of the
PMI activities.

Progress is being made on several fronts toward achieving results through the
contributions of PMI and other partners. For example, preliminary data indicate that the
availability and use of insecticide-treated bednets are increasing in locations where they
have been distributed.5

    •	 A September 2006 study of seven provinces where insecticide-treated bednets
       were distributed in FY 2006 showed higher percentages of bednet usage. For
       example, an average of 94 percent of households had treated mosquito nets,
       and an average of 69 percent of households reported that their child slept under
       a mosquito net the previous night.

    •	 The malaria indicator survey conducted in late calendar year 2006 found that
       51.5 percent of households from hyperendemic regions reported having at least
       one treated net (four provinces out of six in the survey received insecticide-
       treated bednets). The other regions (and the municipality of Luanda) reported
       that 28.2 percent of households had at least one treated net.

The mission is responsible for achieving ambitious PMI goals by the end of 2010.
However, officials indicated that these goals cannot be attained with the level of PMI
funding that the mission expects to receive. According to officials from the mission and
Centers for Disease Control in Angola (CDC/Angola), meeting PMI goals will require
some activities to be funded and carried out by other donors, especially the Global Fund
to Fight AIDS, Tuberculosis, and Malaria (Global Fund). Recently, USAID/Angola and
CDC/Angola staff helped develop a proposal for Global Fund resources amounting to
$78.5 million for activities in Angola during the period 2008-2012. USAID/Angola noted
that not receiving the requested Global Fund funding will seriously jeopardize the

4
  In its comments, the mission indicated that the results at a higher level were never expected to
be present—or measured—based on 1 year of PMI implementation. Nevertheless, it is important
to note that the mission has been working to address the challenge of malaria in Angola for a
number of years and has provided reporting on at least one malaria-related result (children under
5 sleeping under a bed net) in previous years’ congressional budget justifications, as well as in its
annual report.
5
  Other examples of progress being made includes PMI assistance in helping strengthen Angola’s
malarial drug distribution system and assisting in writing of the first malaria strategy for the
Angolan Ministry of Health.



                                                                                                   5
mission’s ability to meet its PMI goals. Moreover, both USAID/Angola and CDC/Angola
officials noted that encouraging the Angolan government to increase resources towards
malaria prevention will be important in developing long-term sustainability. They also
noted that the Angolan government has the necessary resources to devote to fighting
malaria, but that the government must choose to make it a priority.6

While USAID/Angola’s PMI activities are progressing, the mission needs to take action
to strengthen several PMI-related areas. These include (1) finalizing a performance
management plan, (2) performing a data quality assessment, (3) validating partners’
data during site visits, and (4) entering into a formal agreement with the National Malaria
Control Program regarding indoor residual spraying.

Performance Management Plan
Addressing PMI Needs to be Finalized

Summary: Contrary to USAID guidance, the performance management plan (PMP)
addressing USAID/Angola’s health activities does not include the President’s Malaria
Initiative (PMI). This occurred because the mission believed that malaria information
was not going to be included in the Angola Operational Plan. In addition, the mission did
not receive any guidance on PMI indicators until early in calendar year 2007. Without a
complete PMP that addresses PMI activities, USAID/Angola is without a critical tool for
planning, managing, and documenting data collection. The mission also lacks
assurance that it is maintaining the elements that are essential to the operation of a
credible and useful performance–based management system.

The USAID Automated Directives System (ADS) 203.3.3 states that Operating Units
must prepare a complete PMP for each strategic objective within 1 year of approval of
the strategic objective. According to ADS 203.3.3, a PMP is a “tool used by an
Operating Unit and Strategic Objective Team to plan and manage the process of
assessing and reporting progress towards achieving a Strategic Objective.“ PMPs
should provide performance indicators which include baseline levels and targets to be
achieved. ADS 203.3.4.6 states that “usually as part of the Operating Unit’s Annual
Portfolio Review process, Operating Units should update PMPs regularly with new
performance information as programs develop and evolve.”

During the audit, we noted that the PMP addressing USAID/Angola’s health activities
was developed in 2004 by a predecessor strategic objective team before the advent of
PMI. As a result, this PMP contained outdated intermediate results and did not reflect
PMI activities. At the time of the audit, the mission was in the process of developing a
new PMP that included the PMI. The mission anticipated finalizing this new PMP in late
2007.

According to a mission official, USAID/Angola recognized the importance of having an
updated PMP; however, the mission did not focus initially on including PMI indicators
because mission staff thought that malaria information for the Angola operational plan
would be provided and entered by USAID/Washington staff. Moreover, the mission also


6
  Per the Central Intelligence Agency The World Factbook, Angola has abundant natural
resources including large oil deposits, diamonds, gold, extensive forests, and Atlantic fisheries.


                                                                                                6
indicated that it had not received notice of the need to include malaria information in the
Angola operational plan until shortly before that plan was due.

PMPs contribute to the effectiveness of a mission’s performance monitoring system by
ensuring that comparable data will be collected on a regular and timely basis. Without a
PMP that incorporates PMI activities, the mission does not have sufficient assurance
that it is maintaining controls essential to the operation of a credible useful performance-
based management system. To strengthen the mission’s PMP, we are making the
following recommendation:

      Recommendation No. 1: We recommend that USAID/Angola complete and
      finalize its performance management plan to reflect the activities being carried
      out under the President’s Malaria Initiative.

Data Quality Assessment
Needed for PMI Data
Summary: A data quality assessment has not been performed for the mission’s PMI
program as required by Agency guidelines. Data problems, which could have been
uncovered if a data quality assessment had been reported, were found with the over-
reporting of the total number of subsidized and full-cost insecticide-treated bednets.
A data quality assessment had not been performed for PMI indicators because the
mission believed that PMI data would be reported by USAID/Washington and not
USAID/Angola. When guidance was received from USAID/Washington on including PMI
data in the Angola Operational Plan, it was too late to perform a data quality
assessment. Unreliable data can impact the appropriateness of management decisions,
and the ability of managers to evaluate the effectiveness and efficiency of their
programs. Without conducting periodic data quality assessments, USAID/Angola
cannot ensure the validity and accuracy of the data reported to USAID/Washington.

ADS 203.3.5.1 recognizes the importance of data quality standards in managing for
results and ensuring credible reporting. As part of this effort, ADS 203.3.5.2 states that
data reported to USAID/Washington for Government Performance and Results Act
(GPRA) reporting purposes or for reporting externally on Agency performance must
have had a data quality assessment within the 3 years before submission. It further
states that operating units may conduct data quality assessments more frequently.

USAID/Angola had not performed a data quality assessment for the PMI data that was
reported to USAID/Washington.7 The audit determined that the PMI data reported for
subsidized and full-cost insecticide-treated bednets had been overstated—a situation
which may have been identified had a DQA been performed prior to that data being
reported. This data for FY 2006 activities was included in both the PMI “First Annual
Report” (March 2007) and the “Malaria Operational Plan – Year Two (FY 07)” for
Angola. Mission officials stated that they recognized the importance of having a data
quality assessment performed. According to the mission, its PMI senior advisors
monitor and analyze the quality of data received from various sources. In addition, the
mission indicated that its implementing partners regularly meet with the mission and
report on their PMI results.
7
    The last data quality assessment was performed on the health team indictors in 2004.


                                                                                           7
Nevertheless, the total numbers of subsidized and full-cost, insecticide-treated
bednets for FY 2006 were overreported. For example, the number of subsidized and
cost-recovery bednets reported as distributed for FY 2006 in the USAID PMI “First
Annual Report” was 120,949. In contrast, mission reporting in the “Malaria
Operational Plan – Year Two (FY 07)” reflected a total of 106,000 bednets being
distributed during FY 2006 in clinics and local markets. Neither the mission nor the
implementing partner could support the figure of 120,949 or 106,000 bednets.
However, the implementing partner noted that the FY 2006 data that it had reported to
the mission had included the activities of other donors. USAID’s implementing partner’s
records showed that 37,993 bednets were procured under PMI in late FY 2006 with no
distribution occurring in FY 2006.

A data quality assessment had not been performed for PMI indicators because the
mission believed that PMI data would be reported by USAID/Washington and not
USAID/Angola. When guidance was received from USAID/Washington on including PMI
data in the Angola operational plan, it was too late to perform a data quality
assessment. The data reported by USAID’s partners were not being closely examined
by the mission. For example, mission officials were not aware that different numbers
were reported for the subsidized and full-cost bednets in the “First Annual Report” and
the “Malaria Operational Plan – Year Two (FY 07),” nor were they aware that the
reported numbers did not reflect the number of nets procured through PMI in FY 2006.
In another example, the “Malaria Operational Plan – Year Two (FY 07)” reported
107,000 houses sprayed, whereas the “First Annual Report” reported 107,307 houses
sprayed.8

Without conducting periodic data quality assessments that meet the ADS requirements,
USAID/Angola cannot ensure the validity and accuracy of the data reported to
USAID/Washington. Unreliable data can impact the appropriateness of management
decisions and the ability of managers to evaluate the effectiveness and efficiency of their
programs. To ensure that in the future data meets the required quality standards, we
are making the following recommendation:

      Recommendation No. 2: We recommend that USAID/Angola perform a data
      quality assessment for its President’s Malaria Initiative program.


Site Visits Need Documentation
And Data Verification
Summary: The ADS notes the importance of strategic objective teams having adequate
documentation for USAID activities, as well as the importance of monitoring the quality
and timeliness of achievements by implementing partners. A recent USAID/Angola
mission order addressed the importance of monitoring and verifying the accuracy of
reported results by conducting site and field visits to review data collection and
documentation at its source. However, the mission’s documentation of its site visits was
lacking, and no data verification activities were documented by USAID/Angola staff for


8
    This variance is not considered material.


                                                                                         8
its FY 2006 PMI activities. The mission attributed the lack of proactive monitoring during
that time to the lack of mission staff dedicated full time to PMI. The lack of subsequent
proactive monitoring was attributed to the fact that, later, when such staff were available,
they were assigned to conduct other tasks to support time critical PMI activities. As a
result, two problems were identified. First, the mission could not demonstrate whether
appropriate and sufficient site visits were made to monitor PMI implementation. Second,
without periodic data quality validation during site visits, the mission was not assured
that the data used for decision making and reporting was accurate.

According to ADS 202.3.4.6, strategic objective teams “must ensure that they have
adequate official documentation on agreements used to implement USAID-funded
activities, resources expended, issues identified, and corrective actions taken.” Further,
ADS 202.3.6 specifies that “monitoring the quality and timeliness of outputs produced by
implementing partners is a major task of cognizant technical officers (CTO) and strategic
objective teams,” that problems in output quality “provide an early warning that results
may not be achieved as planned,” and that ”early action in response to problems is
essential in managing for results.” In March 2007, USAID/Angola issued Mission Order
203, which stated that program teams are responsible for all aspects of “assessing and
learning” for the results and activities justified and funded through their program.9 It also
noted the importance of “monitoring and verifying the accuracy of reported results by
conducting regular (quarterly or semi-annually) site and field visits to review data
collection and documentation at its source.”

Site visit documentation by mission personnel for PMI activities has been limited. During
FY 2006, there was one documented site visit by the mission’s General Development
Office.10 No data verification was documented by USAID/Angola staff for PMI activities
during this time period. The mission order mentioned above also noted that gaps had
previously been identified with respect to the mission’s records of site visits and
monitoring meetings.

According to the mission, there were two reasons why its staff had not been proactive in
conducting data verification of PMI activities. First, the team leader who oversaw the
mission’s health team (which included the PMI program) joined the mission halfway
through FY 2006 (the period under audit). Second, mission staff were not dedicated full
time to PMI until November 2006. In addition, once those individuals were dedicated full
time to PMI, they were assigned to other time-critical PMI work, including (1) developing
an Angolan national malaria strategy, (2) developing the malaria operational plan, and
(3) writing a Global Fund to Fight AIDS, Tuberculosis, and Malaria funding proposal for
Angola.11




9
   ADS 203 addresses how operating units (including missions) should assess whether activities
are actually achieving intended results and how operating units should learn from that
experience. Mission Order 203 addresses “assessing and learning” within USAID/Angola.
10
    There were two documented PMI site visits conducted in FY 2007 by USAID/Angola. During
this time period, difficulties in securing travel documentation required by Angolan law precluded
one of the program staff members from traveling outside Luanda, Angola. PMI trip reports
documenting the activities of USAID/Washington staff were made available to the audit team.
11
    In its comments, the Mission noted that the PMI—a high priority program—was launched
despite severe constraints.


                                                                                               9
Without trip reports documenting site visits, the mission could not demonstrate whether
the site visits included the monitoring necessary to oversee the implementation of PMI
activities. The maintenance of site visit records is an important control for ensuring that
all of the mission’s partners are adequately monitored, that funds are accounted for and
that significant events, observations, and decisions occurring during site visits are
documented. This is especially important when staff turnover results in new staff
assignments for monitoring ongoing activities. By not performing periodic data validation
during site visits, the mission cannot ensure that its data is accurate.

     Recommendation No. 3: We recommend that USAID/Angola develop and
     implement a plan for its staff to regularly perform and document President’s
     Malaria Initiative site visits and to periodically verify partners’ data during those
     visits.

Indoor Residual Spraying
Responsibilities Need Formalization
Summary: The ADS recognizes the critical coordinating role that USAID can provide
between partners and host country governments. During round 112 of the indoor residual
spraying, provincial governments had important responsibilities to help implement the
spraying. These responsibilities were not formally agreed upon, which resulted in
differing expectations on the hiring and training of sprayers. This, in turn, caused
problems that affected both the quality and reporting of spraying conducted. The
subsequent spraying activity carried out in FY 2007 resulted in an informal agreement
between USAID/Angola and the Government of Angola’s National Malaria Control
Program (NMCP) that provided specific responsibilities related to the spraying.
Discussions are underway to develop new NMCP responsibilities, authorities, and
accountability for indoor residual spraying operational results. This effort needs
strengthening with formalization of accountability built into the indoor residual spraying
process.

ADS 202.3.5.3 recognizes USAID’s critical coordinating role with respect to partners and
host country governments. It notes that strategic objective team leaders and activity
managers are considered official U.S. Government representatives and, as such, can
open lines of communication. Further, ADS 202.3.5.3 states that USAID encourages
strategic operating teams to establish periodic meetings with broader partner groups in
order to share information and elicit feedback.

During the first round of indoor residual spraying in Angola, the spray team members
and spray team supervisors were selected by the provincial governments where spray
activity was being conducted. Those governments were also involved with sprayer
training. An official from USAID’s implementing partner noted that problems were
encountered with this arrangement.

According to this official, the absence of a formal agreement with the participating
provincial governments resulted in differing expectations between the implementing
partner and the provincial governments regarding the types of employees hired and the

12
  The application of indoor residual spraying in a pre-established location and/or locations during
a specific time period is referred to as a “round”.


                                                                                                10
training provided under round 1 of indoor residual spraying. These differing, unwritten
expectations negatively impacted the quality of spraying. For instance, spray team
members were employed who should not have been hired (e.g., some not being able to
read and write) and problems were encountered with the sprayer training.
Subsequently, the implementing partner official noted that in round 2, which was
conducted in FY 2007, more stringent qualifications were established for sprayers,
improvements were made in spraying activity reporting, and controls were put into place
to better monitor the quality of spraying activity. For round 2, an informal agreement was
reached between the implementing partner and the NMCP. This informal agreement
gave the NMCP responsibility for (1) recruiting sprayers and spraying supervisors, (2)
supervising the spray activities, (3) planning spraying activities, (4) setting spraying
targets, and (5) surveying areas to be sprayed. The informal agreement made the
implementing partner responsible for logistics, financing, and technical support.

Although improvements have addressed some of the problems experienced during
round 1 of the indoor residual spraying, risk remains in implementing the program
without a formal agreement between the NMCP and USAID/Angola. According to the
mission, it had been in discussions with the implementing partner and the NMCP to
develop a new model of NMCP responsibilities, authorities, and accountability for indoor
residual spraying field results. The planned efforts of USAID/Angola, the implementing
partner, and NMCP are well intentioned, but they do not formally assign accountability in
the spraying process. Thus, we are making the following recommendation:

   Recommendation No. 4: We recommend that USAID/Angola agree in writing
   with the National Malaria Control Program regarding deliverables, criteria, and
   associated milestones for implementing the indoor residual spraying program.




                                                                                       11
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Angola agreed with all four recommendations.
The mission described the actions taken and planned to be taken to address our
concerns. The mission’s comments and our evaluation of those comments are
summarized below.

In response to recommendation no. 1, concerning finalizing the performance
management plan (PMP), the mission agreed and cited a target date of December 31,
2007, for finalizing the PMP and closing this recommendation. Based on the mission’s
response, we consider that a management decision has been reached on this
recommendation.

For recommendation no. 2, regarding the performance of a data quality assessment, the
mission agreed and indicated that the target date for completing data quality
assessments of the relevant indicators was December 31, 2007. Therefore, we consider
that a management decision has been reached on this recommendation.

In response to recommendation no. 3, concerning documentation of site visits and
periodic verification of partner’s data, the mission agreed with this recommendation and
indicated that a plan for site visits has been drawn up and is in implementation. A
management decision will be reached when the mission have a firm plan of action with
target date for implementing a plan for data verification.

Recommendation no. 4 concerns having the National Malarial Control Program agree in
writing to the required deliverables and associated milestones for PMI implementation of
the indoor residual spraying program activities. The mission concurred with this
recommendation and entered into a written agreement with the National Malaria Control
Program. Accordingly, final action has been reached on this recommendation.

In addition to the above, the mission also provided supplementary comments concerning
our draft report. Those comments were considered in the preparation of the final audit
report. Management’s comments are included in their entirety in appendix II.




                                                                                     12
                                                                            APPENDIX I 




SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted Government auditing standards. Field work was conducted from
July 10, 2007, through August 3, 2007, in Angola. Audit work was carried out in Luanda
and its suburbs and in Lubango.

The objective of this audit was to determine whether selected USAID/Angola activities
under the President’s Malaria Initiative (PMI) were achieving planned results. The audit
team assessed the effectiveness of internal controls related to PMI, such as (1) the
mission’s documentation related to managing and monitoring the program, (2) the
implementing partners’ reporting of program status, (3) the establishment and
maintenance of site visit documentation, and (4) the mission’s annual self-assessment of
internal controls in accordance with the Federal Managers’ Financial Integrity Act of
1982 for fiscal year (FY) 2006. We also tested internal controls that selected partners
had over their PMI commodities.

The scope of this audit included USAID/Angola’s PMI activities carried out during FY
2006. The planned activities were selected from the universe of PMI-funded activities
being carried out in Angola. A total of $7.5 million was obligated in FY 2006:
$1,360,368 obligated bilaterally and $6,139,632 obligated through field support. This
audit examined activities carried out during FY 2006, but it did not include the
ExxonMobil Foundation donation.

Methodology
To answer the audit objective, we met with officials from USAID/Angola, Centers for
Disease Control (CDC/Angola), other implementing partners, and an Angolan
Government health official. The audit team reviewed pertinent planning documents
such as the malaria operational plan and various reporting documents on fiscal year
2006 accomplishments. The audit covered all FY 2006 PMI activities with particular
attention given to those partners who participated in PMI activities for FY 2006, in this
case the partners who were involved with indoor residual spraying and the distribution of
bednets. For selected activities, the audit team, in conjunction with the mission,
identified those activities which were deemed most important for FY 2006.

The audit team interviewed mission officials and implementing partners responsible for
PMI implementation and monitoring. We reviewed pertinent documents that included
but were not limited to trip reports and quarterly reports. This review helped to
determine the levels of monitoring being carried out and if progress towards outputs had
been achieved. The audit team conducted site visits to partners, antenatal clinics, the
indoor residual spraying storage warehouse facility, the insecticide-treated bednet
storage warehouse facility, and a drug distribution and storage facility to observe
operations at various locations where PMI activities were being implemented. In part,
these visits included testing data found in progress reports and annual reports. We
tested output data which included comparing the reported information to supporting



                                                                                      13
                                                                         APPENDIX I 



documentation such as field supervisor log books and databases. In determining how
PMI funds were utilized by the United Nations Children’s Fund for the purchase and
distribution of free bednets, the audit team reviewed the relevant procurement records
and shipping records and other documentation reporting this activity.




                                                                                   14
                                                                           APPENDIX II 




MANAGEMENT COMMENTS 



                                  MEMORANDUM


TO:           Regional Inspector General/Pretoria, Nathan Lokos

CC:           Carlene Dei, Director, USAID/Southern Africa

FROM:         Mervyn Farroe, Acting Director, USAID/Angola /s/

DATE:         October 25, 2007

SUBJECT:      Management Comments on the Draft Audit Report of USAID/Angola’s
              Implementation of the President’s Malaria Initiative (Report No. 4-654
              07-XXX-P)


This memorandum transmits USAID/Angola’s management comments to the referenced
RIG/Pretoria Draft Audit Report. Thank you for sharing the draft report with the
Mission, and providing us the opportunity to make clarifications. We welcome the
report and your continuing guidance on how to improve implementation of the
President’s Malaria Initiative. Herein we provide additional information to address the
draft findings and some of the report’s language. In addition, we have outlined a number
of management actions which we believe will fully address the RIG’s audit
recommendations. We very much appreciate the thoroughness and professionalism with
which this audit was conducted. On the whole, we consider that the team has presented a
balanced report with recommendations useful to the program and the Mission.

Please note that the content below is a re-submission of what was sent by Mission
Director Susan Brems via email on October 18, 2007.

Recommendation No. 1: We recommend that USAID/Angola complete and finalize its
Performance Management Plan to reflect the activities being carried out under the
President’s Malaria Initiative.

Comment/response: We agree with the recommendation. The Mission’s monitoring and
evaluation specialist left unexpectedly in May. The Mission is still recruiting for a
qualified replacement. In the interim, a two-month personal services contractor helped to


                                                                                       15
                                                                              APPENDIX II 



fill some of the Mission’s monitoring and evaluation needs, especially with regard to
undertaking data quality assessments. It is worth noting that USAID/Angola’s Mission
Order on Performance Management assigns a higher standard than does Automated
Directive System (ADS) 203 for judging when a Performance Management Plan (PMP)
is considered complete. For this reason, in defining completion, the Mission is taking
care to ensure that its PMP is as thorough as possible, particularly where issues of data
quality still exist. Through a program support contract, the Mission will seek expert
advice as to the completeness of its PMP, act expeditiously to address any remaining
deficiencies and implement agreed-upon recommendations. Therefore, USAID/Angola
will target December 31, 2007 for finalizing the PMP and closing this recommendation.

Recommendation No. 2: We recommend that USAID/Angola perform a data quality
assessment for its President’s Malaria Initiative program.

Comment/response: We agree with the recommendation. At the time the audit took
place, the Mission’s monitoring consultant was fulfilling his terms of reference to
conduct data quality assessments on a number of Mission indicators, including PMI
indicators. Since the time the audit team was in country, a data quality assessment has
been completed for a key indicator: Number of houses sprayed with insecticide with USG
support. That assessment is included here as Attachment 1. Data quality assessments for
three other indicators will be completed in tandem with finalizing the PMP by December
31, 2007.

Recommendation No. 3: We recommend that USAID/Angola develop and implement a
plan for its staff to regularly perform and document their President’s Malaria Initiative
site visits and to periodically verify partners’ data during those visits.

Comment/response: We agree with this recommendation. A plan for these visits has
been drawn up and is in implementation. That plan is included here as Attachment 2.
Thus, the Mission believes this recommendation can be closed.

Recommendation No. 4: We recommend that USAID/Angola agree in writing with the
National Malaria Control Program regarding deliverables, criteria and associated
milestones for implementing the indoor residual spraying program.

Comment/response: We agree with this recommendation and were able to finalize the
written agreement on October 16. A copy of the agreement (in Portuguese) is included
here as Attachment 3. Thus, the Mission believes this recommendation can be closed.

III.	   Additional Comments

1. 	    Page 1, paragraph 3, “At higher levels, the audit found that results from FY 2006
        activities could not be determined. This is because baseline data did not exist….”

In the Mission’s view, this is not entirely accurate, because results at a higher level were
never expected to be present – or measured – based on one year of implementation. That



                                                                                          16
                                                                             APPENDIX II 



is not consistent with either program start-up or epidemiological behavior. Since FY
2006 was the first year of implementation, we never aimed at measuring more than
process indicators (for example, the number of nets distributed), rather than outcome
indicators (for example, the proportion of pregnant women who slept under a net).
Consistent with the time needed to achieve public health impact, outcome indicators were
only planned to be assessed every two years. The Malaria Indicator Survey that was
conducted between November 2006 and April 2007 is the baseline against which
progress will be tracked in 2008/2009 and impact assessed at the end of the program (in
2010). In other words, even if baseline data had been available before the Malaria
Indicator Survey took place, data would not have been available for the auditors to
measure impact at higher levels. Bottom line: No outcome results were planned for the
first year of implementation; therefore the program should not be held accountable for
not achieving them.

We would suggest wording along the following lines: At higher levels, the audit found
that results from FY 2006 activities could not be determined, because of the short
implementation period involved.

2. 	   Page 1, paragraph 3, “By 2009 a survey will be completed so that the impact
       made by PMI activities should be known.”

This is not entirely accurate. The survey referred to will be the mid-point evaluation; it
may or may not measure progress on morbidity and mortality, depending on whether it is
done jointly with a Multiple Indicator Cluster Survey (commonly known as MICS). The
2009 survey will primarily measure progress in terms of coverage of malaria
interventions undertaken jointly by the PMI and its partners. No impact assessment is
envisioned by then.

3. 	   Page 2, fourth bullet, “Intermittent preventive treatment – Pregnant women are
       treated with at least two doses of sulfadoxine-pyrimethamine to provide
       protection from maternal anemia and low birthweight. Under PMI this medicine
       is provided and health care workers are trained.”

There are two areas of note here. First, the treatment of pregnant women prevents or
attenuates malaria, as well as preventing anemia and low birthweight. Second, PMI does
not buy the drug in question, though PMI has been giving support in terms of training and
supervision of health workers.

4. 	   Page 2, paragraph 3, “For children under age five, malaria is responsible for an
       estimated mortality rate of 35 percent and a hospital admission rate of 60
       percent. For pregnant women the maternal mortality caused by malaria is
       estimated at 25 percent.”

This information should be more properly stated thus: Malaria is responsible for an
estimated 35 percent of Angola’s extremely high under-5 mortality rate of 260 per 1,000
children, and about 60 percent of hospital admissions for this group. Further, malaria is



                                                                                        17
                                                                                APPENDIX II


estimated to be responsible for 25 percent of Angola’s very high maternal mortality rate
of 1,500 per 100,000 live births.

5. 	   Page 4, paragraph 1, “For higher level results, the impact of FY 2006 activities
       could not be determined. For pregnant women the maternal mortality caused by
       malaria is estimated at 25 percent.”

The reasons the Mission disagrees with this statement were explained above, under the
first point. The same statement appears again on page 5, paragraph 1. Also, the last
sentence bears revising to: Some 25 percent of maternal mortality is attributable to
malaria.

6. 	   Page 4, paragraph 2, “…obtaining vehicles…”

PMI has only been hiring vehicles, not purchasing them. If this distinction is important,
then perhaps it should be made.

7. 	   Page 4, footnote 3:

The figure of 170,000 houses to be sprayed in the South that we stated in the Malaria
Operational Plan was only an estimate of the population in those two provinces from
figures provided by the provincial government. None of the initial planning team had
visited the area as of September 2005, when the Operational Plan was written, and no up-
to-date census or maps of the area were available. (Angola’s last national census was in
1970.) Worldwide, sometimes local government figures are commonly overestimated
when hard data do not exist, especially in cases where population levels are intricately
related to budgetary allocations.

8. 	   Page 5, first paragraph.

Typically in development projects, other preparatory activities begin before baseline data
are in hand. Baseline measurement is often a first-year activity of projects. In part this is
because of the well known weaknesses of data in developing countries. It is also because
start-up activities, such as procurement of supplies and drugs, do not affect baseline
measurements at the level of the population. In the case of PMI, another factor was
scheduling of short-term technical assistance visits from a finite number of specialists
whose services were required for many PMI activities in participating countries. Further,
the limited first-year funds did not prioritize baseline data collection, relative to spraying
and bednets. Despite these challenges, Angola was the first PMI country to complete a
Malaria Indicator Survey.

9. 	   Page 5, first bullet: “For example, an average of 94 percent of households had
       treated mosquito nets, and an average of 69 percent of households reported that
       their child slept under a mosquito net the previous night.”




                                                                                           18
                                                                                APPENDIX II


Since percents are not an average, this sentence should read: For example, 94 percent of
surveyed households had treated mosquito nets, and 69 percent of surveyed households
reported that their child slept under a mosquito net the previous night.

10. 	   Page 5, second bullet:

For the same reason, the last sentence should read: The Malaria Indicator Survey found
that, nationwide, 23.2 percent of households had at least one treated net.

11. 	   Page 5, footnote 4, “assisting in writing of the first malaria strategy...”

This is not totally accurate. Instead, it should read “assisting in updating and preparing a
budget for the malaria strategy...”

12. 	   Page 6, paragraph 5, “This official stated that the Mission’s efforts to update its
        PMP were delayed because the Mission believed that malaria information was
        not going to be included in the Angola Operational Plan.”

This statement should be revisited in the context of the comment immediately below. A
more accurate statement would be: The Mission did not focus initially on including PMI
indicators in the new PMP that it was in the process of developing because it understood
that malaria information for the Angola Operational Plan would be provided and entered
by Washington-based staff.

13. 	   Page 7, the box and text in paragraph four

This text implies and refers explicitly to SO 7 as being responsible for the Mission’s PMI
activities; this is incorrect. Strategic Objective 654-007, Increased Use of
Maternal/Child Health and HIV/AIDS Services and/or Improved Health Practices, was
the home for the Mission’s health activities under its former strategic plan. However,
since November 7, 2005, when AA/AFR approved an addition to the Angola Country
Strategic Plan (2001 – 2005) as an interim measure, the bulk of the Mission’s health
activities have resided within Strategic Objective 654-011: Provision of Essential
Services by Local and National Institutions Increased. Although reviewed by the Africa
Bureau in September 2005, the Mission’s new strategic plan (2006 – 2009), which
included SO 11, was not formally approved by AA/AFR until April 5, 2006. The new
strategy made note that Angola would be a beneficiary of the PMI, though funding levels
were imprecise.

Accordingly, it would be more accurate to state that the SO 11 team has been responsible
for PMI since the inception of activities in Angola. Furthermore, as this was a new SO,
the focus of monitoring and evaluation immediately shifted to developing a new PMP.
Thus, it was never the Mission’s intent to modify SO 7 to include PMI; rather it was
decided to integrate PMI into a new PMP, along with other new Mission activities.




                                                                                          19
                                                                             APPENDIX II


14. 	   Page 7, last paragraph, and page 8, top lines, re the discrepancy in reporting of
        the total numbers of bednets:

The reported figure of 37,993 bednets procured and distributed by PSI is quite a bit
below the figure we were given by PSI when we wrote the Annual Report (120,949).
Instructions from PMI management in Washington were to include all nets distributed
by PSI with USAID and/or PMI funds since the President's original announcement about
the PMI on June 30, 2005, i.e., the total of insecticide-treated bednets distributed with
USAID funds between June 30, 2005 and January 31, 2007, when the books on the first
year's activities under PMI were officially closed. Unfortunately, PSI misunderstood this
guidance and provided data on bednets distributed from all sources; thus the figure
mistakenly included bednets distributed with funding from a private source, Exxon
Mobil.

15. 	   Page 8, paragraph 2, “Malaria Operational Plan –Year Two (FY 06) reported
        107,000 houses sprayed, whereas the first annual report reported 107,307
        houses”

We believe this perceived discrepancy is purely the result of rounding and should not be
attributed to the lack of data quality assessments, notwithstanding the importance of those
assessments for detecting errors.

16. 	   Page 9, paragraph 3, regarding PMI staffing:

Although the report mentions that the PMI team was not fully staffed when activities
began, the difficulties faced are perhaps understated. President Bush announced the PMI
on June 30, 2005. The first assessment and planning visits took place in August and
September 2005. The first field activity in any PMI country was the RTI-supported
spraying in Huila and Cunene Provinces, which began in December 2005. From August
2005 to March/April 2006, PMI was largely managed by the Supervisory General
Development Officer, a backstop at CDC in Atlanta and a backstop at USAID in
Washington. This is obviously not an ideal situation even under the best of
circumstances, and Angola presented special challenges in its public health context.
PMI-specific personnel did not arrive until November 2006, a full year after activities
began. In short, a high-priority program was launched despite severe constraints.

17.    Footnote 9, “During this time period one of the program staff members was
having difficulties which precluded site visit travels.”

We suggest the following language: Rigidities in travel documentation required by
Angolan law precluded one of the program staff members from traveling outside Luanda.

Attachments:

1. 	    Data Quality Assessment on Number of Houses Sprayed with Insecticide with
        USG Support



                                                                                        20
                                                                          APPENDIX II 




2. 	   Plan for Performing and Documenting Site Visits, including Data Verification

3. 	   Agreement on Deliverables, Roles and Responsibilities between the National
       Malaria Control Program and USAID, through Research Triangle Institute as the
       Implementing Entity (in Portuguese)




                                                                                      21
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
